Final Assessment Report 08-06, March 31, 2007, “Operating System Security for GPO’s
Passport Printing and Production System”

Enhanced border security has significantly increased the demand for U.S. passports. The
Government Printing Office (GPO) has a Memorandum of Understanding with the
Department of State for producing, storing, and delivering printed passports. GPO’s
Passport Printing and Production System (PPPS) includes various computer applications
and operating systems that support the production of passports. GPO’s Plant Operations
Division administers PPPS computer applications while the GPO Chief Information
Officer (CIO) is responsible for administering PPPS operating systems. If these
operating systems are not configured securely, critical computer applications such as
databases and custom applications are vulnerable and could be compromised. The risk
associated with compromise to the operating systems hosting such critical applications
could result in systems services being disrupted, sensitive information being divulged, or
forgery. The OIG conducted an assessment to evaluate the security configuration for
selected operating systems that support production of passports to determine whether
GPO is enforcing an appropriate level of security. The OIG issued a sensitive report
containing recommendations to not only help strengthen the security of the PPPS, but
also reduce the risk of system compromise.
